         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Public Liaison Report


       Environmental Justice Concerns
       and Communication Problems
       Complicated Cleaning Up
       Ringwood Mines/Landfill Site
       Report 2007-P-00016

       April 2, 2007
Report Contributors:                 Paul McKechnie
                                     Dan Cox
                                     Tom Reilly
                                     Christine Baughman




Abbreviations

Borough         Borough of Ringwood, New Jersey
CIC             Community Involvement Coordinator
CRP             Community Relations Plan
EPA             U.S. Environmental Protection Agency
Ford            Ford Motor Company
NJDEP           New Jersey Department of Environmental Protection
NPL             Superfund National Priorities List
OIG             Office of Inspector General
PRP             Potentially Responsible Party
RPM             Remedial Project Manager




Cover photo:	     Warning signs at one of the sludge removal areas at the site
                  (taken by OIG staff in August 2006).
                        U.S. Environmental Protection Agency                                              2007-P-00016

                                                                                                           April 2, 2007

                        Office of Inspector General


                        At a Glance

                                                                             Catalyst for Improving the Environment


Why We Did This Review             Environmental Justice Concerns and
Three members of the               Communication Problems Complicated
New Jersey congressional           Cleaning Up Ringwood Mines/Landfill Site
delegation requested that the
Office of Inspector General
“conduct an investigation into      What We Found
the history and continued
inadequate characterization        We did not find evidence to indicate that the U.S. Environmental Protection
and remediation of the             Agency’s (EPA’s) actions or decisionmaking to investigate or remediate
Ringwood Mines/Landfill            environmental conditions at the Ringwood Mines/Landfill site were affected by
Superfund site.” This report       the area’s racial, cultural, or socioeconomic status. However, residents living near
addresses whether environ­         the site continue to believe they were unfairly treated because of their racial
mental injustice exists and if     makeup and socioeconomic status. Several residents believe their health was
EPA employed effective             adversely affected by exposure to site contamination. Ringwood residents said
community relations. Envi­
                                   that multiple cleanups at the site beginning in 1987, and a lack of effective
ronmental justice is fair treat­
ment and meaningful involve­       communication with EPA Region 2, contributed to this perception. Additionally,
ment of all people in imple­       residents believe that EPA is pursuing the current activity because of outside
menting environmental laws.        pressures. Region 2 plans to address environmental justice concerns by cleaning
                                   up the site.
Background
                                   Problems with communications and relationships impeded effective cooperation
About 500 acres around the         between EPA and residents. Although Region 2 has increased its community
Ringwood mines became a            relations efforts at the site, the new community relations plan being prepared must
Superfund site in 1983             address these impediments.
because of dumped hazardous
paint sludge. Paint sludge was      What We Recommend
removed several times, and
the water was being                We recommend that the Regional Administrator, Region 2:
monitored, so EPA deleted it
from the list of such sites in     •	 Address the Ringwood community’s perception of unfair treatment and
1994. Cleanup activities at the       concerns regarding completely cleaning up the site by ensuring that the new
site resumed after residents          Record of Decision includes a detailed comparison of current and prior site
reported finding more paint           investigations and cleanups.
sludge in 2004.                    •	 Prepare and implement a new community involvement plan for the Ringwood
                                      site.
For further information,
contact our Office of
                                   •	 Help the community correct the deficiencies in the Community Advisory
Congressional and Public              Group so its meetings are regularly held and productive.
Liaison at (202) 566-2391.         •	 Increase communication with the community about Region 2 efforts to ensure
                                      that the Ford Motor Company properly performs the correct work at the site.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/      Region 2 concurred with our recommendations.
20070402-2007-P-00016.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                           April 2, 2007

MEMORANDUM

SUBJECT:	              Environmental Justice Concerns and Communication Problems
                       Complicated Cleaning Up Ringwood Mines/Landfill Site
                       Report No. 2007-P-00016


FROM:	                 Eileen McMahon
                       Assistant Inspector General for Congressional and Public Liaison

TO:	                   Alan J. Steinberg
                       Regional Administrator
                       Region 2


This is our final report on the subject review conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). Congressman Frank Pallone, and Senators
Frank Lautenberg and Robert Menendez of New Jersey requested in March 2006 that we conduct
the review. This report contains findings that describe the problems the OIG has identified and
corrective actions the OIG recommends. This report represents the opinion of the OIG and the
findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The findings in this report are not binding in any enforcement proceeding brought by EPA or the
Department of Justice under the Comprehensive Environmental Response, Compensation, and
Liability Act to recover costs incurred not inconsistent with the National Contingency Plan.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $254,713.

Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a
written response within 90 days of the date of this report. You should include a
corrective action plan for agreed-upon actions, including milestone dates. We have no
objections to the further release of this report to the public. This report will be available
at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at 202-566-2391; or Paul McKechnie,
Product Line Director for Public Liaison, at 617-918-1471 or mckechnie.paul@epa.gov.
                     Environmental Justice Concerns and Communication Problems 

                         Complicated Cleaning Up Ringwood Mines/Landfill Site 




                                    Table of Contents 


Chapters
1      Introduction .............................................................................................................      1         


                 Purpose ..........................................................................................................    1             

                 Background ....................................................................................................       1             

                 Scope and Methodology.................................................................................                3             


2      Ringwood Residents Have Environmental Justice Concerns ............................                                             5 


                 No Evidence of Discrimination .......................................................................                 5

                 Region 2 Actions Contributed to Perception of Unfair Treatment...................                                     6

                 Site Residents Believe Health Was Adversely Affected .................................                                7

                 Region 2 Plans to Address Concerns by Cleaning Up the Site......................                                      8

                 Recommendation ...........................................................................................            9             

                 Agency Response and OIG Comments .........................................................                            9


3      Region 2 Must Overcome Impediments to Good Community Relations ............                                                    11     


                 Region 2 Did Not Promptly Establish Community Relations ..........................                                   11 

                 Community Relations Plan Did Not Change with the Situation ......................                                    13 

                 EPA’s Relationship with Ford Is Perceived As Inappropriate .........................                                 14 

                 Other Legal Considerations Complicate Communication...............................                                   15 

                 Continued Improvement in Communication Is Needed ..................................                                  16 

                 Recommendations .........................................................................................            19             

                 Agency Response and OIG Comments .........................................................                           19 


Status of Recommendations and Potential Monetary Benefits.......................................                                      21     




Appendices
A        Agency Response to Draft Report ......................................................................                       22     


B        Distribution ............................................................................................................    26     

                                Chapter 1
                                 Introduction

Purpose
          We conducted this review in response to a request dated March 3, 2006, from
          three members of the New Jersey congressional delegation: Congressman Pallone,
          Senator Lautenberg, and Senator Menendez. They requested that the Office of
          Inspector General (OIG) review various issues concerning the actions of the U.S.
          Environmental Protection Agency (EPA) at the Ringwood Mines/Landfill
          Superfund site in Ringwood, New Jersey. This review addresses the following
          two objectives.

          •	 Did racial, cultural, or socioeconomic factors at Ringwood have any bearing
             on timely investigating and remediating environmental concerns at the
             Ringwood site?

          •	 How effective were Region 2's community relations activities at the
             Ringwood site?

          The OIG (Office of Program Evaluation) will issue a separate report on EPA
          oversight of site cleanup efforts, remedy selection, and conditions which resulted
          in relisting the site on the Superfund National Priorities List (NPL).

Background
          From 1967 into 1971, waste material from the Mahwah, New Jersey, factory of
          the Ford Motor Company (Ford) was deposited in the Borough of Ringwood,
          New Jersey, in and around the shafts of abandoned iron ore mines that had
          operated from the 1700s through the 1930s. The waste materials included car
          parts, solvents, and paint sludge. A subsidiary of Ford had purchased 800 acres of
          this land in 1965, with the intention of developing it. However, the development
          plans were not approved.

          In 1970, Ford donated about 300 acres of the area to the Borough of Ringwood
          (Borough), specifically to the Ringwood Solid Waste Management Authority. On
          part of this land, the Borough started a municipal landfill in 1972. The landfill
          was closed in 1976, at the request of the New Jersey Department of
          Environmental Protection (NJDEP).




                                           1

             Figure 1. Paint sludge around a tree.                  Testing by NJDEP in 1982 found
                                                                    that groundwater and surface
                                                                    water in the area were
                                                                    contaminated with volatile
                                                                    organic compounds, lead, and
                                                                    arsenic. This testing led to EPA
                                                                    adding the Ringwood
                                                                    Mines/Landfill site (Ringwood
                                                                    site or site) to the NPL in 1983.
                                                                    The NPL is a list of the most
                                                                    serious hazardous waste sites in
                                                                    the United States identified for
                                                                    possible long-term cleanup. The
                                                                    Ringwood site consists of
                                                                    approximately 500 acres in a
                                                                    block of land about one-half mile
Source: Photo taken by OIG staff in August 2006.
                                                                    wide and one and one-half miles
                                                                    long. It consists of rugged forest
               areas, open areas overgrown with vegetation, abandoned mine shafts and surface
               pits, an inactive landfill, an industrial refuse disposal area, a municipal recycling
               area, the Ringwood maintenance garage, and about 50 private homes.

               EPA has the legal authority to identify potentially responsible parties (PRPs)
               linked to the site and negotiate settlements with PRPs for site cleanup work or to
               issue administrative orders directing them to do so. In 1984, through EPA
               enforcement actions and the oversight of staff from EPA’s Region 2, Ford started
               investigating the contamination of the Ringwood site as a PRP, and in 1987,
               removed 7,000 cubic yards of surficial paint sludge containing lead and arsenic
               from four areas. In September 1988, the Acting Regional Administrator for
               Region 2 decided, via a Record of Decision, to require long-term monitoring of
               surface water and groundwater at the site, as well as confirmatory soil sampling in
               areas where sludge and soil were removed. Additional paint sludge and other
               debris were removed in 1990. In 1993, Region 2 concluded the requirements had
               been met to delete the site from the NPL. The State of New Jersey concurred
               with the decision to delete the site from the NPL. The Ringwood site was deleted
               from the NPL in 1994. Ford later removed additional paint sludge from the site in
               1995 and 1997, in response to requests from residents and the Borough.

               In 2004, the local community alerted EPA to the presence of additional paint
               sludge at the Ringwood site. Ford and the Borough are re-investigating the site
               under the oversight of an EPA Region 2 Remedial Project Manager (RPM), based
               on EPA enforcement actions dated September 2005. Ford is identified as the
               performing party. Thus, Ford is also removing additional paint sludge from
               several locations at the site. Some of these locations were next to the sites of
               earlier removal actions. As of July 2006, 16,000 tons of paint sludge and soil had
               been removed. In addition, New Jersey agencies are overseeing the possible



                                                     2

         remediation of residential properties or the relocation of residents related to the
         Ringwood site. Effective October 2006, the Ringwood site was again added to
         the NPL.

Scope and Methodology
         We performed this review in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States, except that we limited our
         review of management controls and compliance to those directly relating to the
         issues identified in the congressional request.

         We performed our work from June 2006 through November 2006. As part of our
         work, we interviewed EPA employees in the Region 2 Office of Regional
         Administrator, the Public Affairs Division, and the Emergency and Remedial
         Response Division; NJDEP employees of the Environmental Justice Program;
         eight current or former residents who lived on or near the Ringwood site (site
         residents); several consultants for the residents; and officials of the Borough. To
         perform this review in a timely manner and still comply with the requirements of
         the Paperwork Reduction Act, we limited the number of interviews conducted.
         However, to offset this limitation, we held two open meetings in Ringwood
         during October 2006, to obtain more information from the community about
         community relations and environmental justice. Approximately 55 people came
         to these meetings, and 30 people spoke during the sessions. Those who attended
         included site residents, consultants for the site residents, residents living
         elsewhere in the Borough (Borough residents), Borough officials, other elected
         officials, a representative of an environmental organization, and residents of
         nearby communities.

         Besides talking to people, we toured the Ringwood site with staff from Region 2
         and other organizations. We also reviewed documents provided by those who
         spoke to us, documents from Region 2’s site files for the Ringwood site,
         documents in the Ringwood site information repository at the Ringwood Public
         Library, and information obtained through the Internet, particularly the Websites
         of EPA and the Websites specifically for the Ringwood site. In a few cases, we
         relied on information obtained by the other OIG team working on the Ringwood
         congressional request. Finally, we obtained information related to the Ringwood
         site from EPA’s financial management system.

         We issued a draft report to the Regional Administrator of Region 2 on
         February 12, 2007. The Assistant Regional Administrator for Policy and
         Management responded in a memorandum dated March 16, 2007. This
         memorandum is attached as Appendix A. The Region 2 official concurred with
         all of the recommendations, and cited actions the Region has taken to start
         implementing two of the recommendations. The response also provided several
         factual corrections and suggested content revisions. We revised the report as we
         considered appropriate, and discuss some of these items at the end of Chapters 2


                                           3

and 3. In addition, the Region’s response requested that we change the title of the
report so it would be neutral, reflecting the subject of the review. We did not do
so because it is OIG procedure that the report title should reflect our position on
the matter under review.




                                 4

                                 Chapter 2
                Ringwood Residents Have
              Environmental Justice Concerns

          Contrary to the strong opinions expressed by Ringwood site residents, we found
          no evidence that EPA’s actions or decisionmaking were affected by the area’s
          racial, cultural, or socioeconomic status. We did find that in 1984, EPA Region 2
          did not take the actions needed to foster a feeling among the residents that EPA
          was committed to protecting their health and the environment. Additionally, the
          residents believe that outside pressures have caused the latest cleanup initiative.
          Region 2’s past interactions with Ringwood residents, together with the fact that
          EPA is back for the fifth time in 20 years to clean up the site, have contributed to
          the residents’ feelings of mistrust.

No Evidence of Discrimination
          Based on our extensive review of site files and interviews, we did not find
          evidence that Region 2 discriminated against Ringwood site residents.
          Of the seven people we interviewed who currently live on the site, six indicated
          their heritage included American Indian (i.e., the Ramapough Mountain Indians),
          African American, or both. These are considered minority populations. Six
          indicated their household income could be categorized as lower income.
          Information provided by the Borough Manager supported the characterization of
          the neighborhood as lower income. He indicated that 560 people are living in 44
          homes there, or an average of 12 people per home. Also, the assessed values of
          homes in the neighborhood of the site are lower than for the Borough as a whole:
          an average of $68,000 versus $180,000.

          Racial and socioeconomic factors did not appear to have any bearing on EPA
          efforts to clean up the Ringwood site. One Region 2 supervisor involved with the
          earlier cleanup efforts at the site said that he was aware some of those living at the
          site were members of the Ramapough Mountain Indian community. He said the
          fact that they were members of a minority community had no effect on the work
          that EPA needed to do at the site. He added that Agency staff did not treat them
          differently. He explained that it was EPA’s job to clean up the site regardless of
          who lived there, and even if no one lived there.




                                            5

Region 2 Actions Contributed to Perception of Unfair Treatment
          Environmental justice is the fair treatment and meaningful involvement of all
          people regardless of race, color, national origin, or income with respect to
          developing, implementing, and enforcing environmental laws, regulations, and
          policies. Seven individuals, though, who spoke at our public availability session
          and included two residents we had previously interviewed, felt that the Ringwood
          site would have been cleaned up more timely and effectively if the site had been
          located in a nonminority, more affluent neighborhood. Of the current residents
          we interviewed or who provided comments at our public availability sessions,
          most felt they had not been treated fairly by EPA for varying reasons. First, EPA
          performed previous cleanups of the site, but it is still contaminated. Second,
          during earlier cleanups of the site, EPA did not communicate formally with the
          residents. Third, residents believe outside pressure is forcing Region 2’s current
          actions.

          Five Cleanup Actions Required

          EPA is conducting a fifth cleanup action at the Ringwood site, because all
          contamination was not identified and removed during the previous four cleanups.
          A brief summary of the prior four cleanup actions follows:

          •	 Beginning in October 1987, Ford excavated and removed 7,000 cubic yards of
             paint sludge containing lead and arsenic from the surface of four areas of the
             site.

          •	 Additional paint sludge was discovered at the O’Connor Disposal Area of the
             site in October 1989, and in January 1990, drums of waste material were
             discovered there. As a result, 51 drum remnants and 727 tons of additional
             paint sludge were              Figure 2. Removal activity at SR-3 (sludge removal
             removed. In 1992 and            area 3), just north of the O’Connor Disposal Area.
             1993, geophysical
             surveys and test pit work
             were conducted in the
             area, but no additional
             barrels or hazardous
             substances were
             discovered.

          •	 In 1995, residents
             notified Borough officials
             that more paint sludge
             was at the site. Ford
             removed five cubic yards       Source: Photo taken by OIG staff in August 2006.
             of paint sludge from a
             residential property.


                                            6

          •	 In December 1997 and January 1998, an additional 30 cubic yards of paint
             sludge and soil were removed from the hillside adjacent to the O’Connor
             Disposal Area.

          Lack of Communication During Original Cleanup

          While the Superfund program was relatively new at the time, Region 2 staff were
          required to establish an effective dialog with the community during the original
          cleanup of the Ringwood site. When the Region did not effectively communicate
          with the community, the residents began to mistrust EPA and believed they were
          not being treated fairly. We discuss problems regarding EPA communications
          and community relations at the Ringwood site further in Chapter 3.

          Many Believe Outside Pressure Was Needed for Current EPA Actions

          According to many individuals whom we interviewed or who spoke at our public
          availability session, not only has EPA not cleaned up the site, but also it is not
          voluntarily doing so now. These individuals believed that EPA would not have
          taken the current actions without outside pressure. They believed EPA responded
          to various sources of pressure, including pressures from elected officials,
          residents’ lawyers, environmental
          groups, and the media.                         Figure 3. Map of Ringwood showing
                                                         (in yellow) the approximate size and
                                                             location of the Superfund site.
          Ringwood site residents are sensitive to
          the manner in which they are
          treated. The Borough covers an area of
          more than 25 square miles. Yet several
          facilities are concentrated in the same
          area around the Ringwood mines. This
          includes a landfill (now closed), a
          recycling center, the Borough
          maintenance garage, and radio and
          power line towers. In the 1990s, the
          area was a proposed site for a power
          plant and a chemical company.

Site Residents Believe Health Was
Adversely Affected
          Several residents believe their health, or
          the health of family members or
          neighbors, was adversely affected by
          exposure to contamination at the site.
          For the adults, this exposure has now
                                                       Source: OIG staff.



                                            7

          lasted 40 years, that is, since 1967. Four people gave us examples of such health
          problems.

          In May 2006, the New Jersey Department of Health and Senior Services
          completed a public health assessment and concluded that the Ringwood site posed
          a public health hazard because exposure to paint sludge and soil may continue to
          occur at levels of health concern. The report also noted a higher proportion of
          children with elevated blood lead levels compared to the rest of the Borough.
          However, the overall incidence of cancer was not elevated. The report
          recommended that an exposure investigation be conducted because of the
          potential for exposure to metals from paint sludge and contaminated soils at the
          site. However, in a June 2006 letter, attorneys representing some Ringwood
          residents indicated that they had advised their clients not to participate in
          interviews or physical exams requested by the Agency for Toxic Substances and
          Diseases Registry, due to ongoing litigation regarding the Ringwood site. The
          lawyers proposed an alternative method to provide information on their clients’
          past and current medical condition.

          In May 2006, EPA Region 2 issued a draft environmental justice assessment
          which concluded that Ringwood was an adversely impacted area based on a report
          issued by the Agency for Toxic Substances and Diseases Registry in 1989. The
          report concluded that the Ringwood site posed a potential health concern because
          of the risk to human health that could result from possible exposure to hazardous
          substances at levels that may result in long term adverse health effects. However,
          the Region indicated that because of the current limitation of localized health
          information about the community resident population, it could not satisfactorily
          distinguish the area from other communities to perform a comparative assessment
          to determine if environmental injustice occurred or exists. The Region indicated
          that to make such a determination it needed to conduct a refined environmental
          justice assessment, including cumulative and risk assessments, when localized
          health data on the residents have been collected by the State of New Jersey and a
          comparable “reference” community is identified.

Region 2 Plans to Address Concerns by Cleaning Up the Site
          Region 2 believes that cleaning up the Ringwood site will be the most effective
          way to address any concerns or perceptions regarding environmental injustice.
          Regional staff informed Ringwood site residents that they plan to effectively
          clean up the site this time. This intention appears to be supported by the
          Agency’s relisting of the site on the NPL. However, residents doubt the Agency’s
          abilities to do so, considering EPA’s past cleanup efforts at Ringwood. Residents
          cited concerns that all sludge and debris may not have been identified; limited
          monitoring of streams flowing into the Wanaque Reservoir was occurring; and
          there was a lack of testing of local wildlife and plants, some of which are
          consumed by site residents.


                                           8

         Region 2’s RPM for the Ringwood site said that testing for waste disposal areas
         has been extended to areas not previously surveyed, additional monitoring wells
         are being installed, and testing wildlife and plants began in October 2006. On
         January 30, 2007, EPA, together with Federal and State health agencies, held a
         public information session to discuss results of the EPA’s biota study at the
         Ringwood site; about 50 people attended the session. On March 9, EPA released
         the initial results of its study of deer from the Ringwood site. Recently collected
         deer from off the site are being analyzed. According to a Region 2 official,
         additional wildlife, including wild turkeys, rabbits, and squirrels, will be collected
         and analyzed; they plan to present these findings to the public later this spring.

         While the Region plans to address environmental justice concerns by cleaning up
         the site, we believe the Region can take additional action to alleviate these
         concerns. When the current investigation of the site is completed, Region 2 will
         consider options for cleaning up the site. The remedy the Region selects will be
         documented in a Record of Decision. According to a Region 2 official, a Record
         of Decision routinely includes a summary of prior investigation and cleanup
         actions. And any future Record of Decision issued for the Ringwood site will
         discuss all prior investigation and cleanup actions implemented at the site and
         demonstrate why the selected cleanup action, once implemented, will protect
         human health and the environment. We believe the new Record of Decision
         should not just summarize the prior actions, but provide a detailed comparison of
         the current and prior investigations and cleanup actions. We believe such a
         detailed comparison will better address residents’ concerns about the scope of the
         current cleanup.

Recommendation
         We recommend that the Regional Administrator, Region 2:

         2-1 	   Address the Ringwood community’s perception of unfair treatment and
                 concerns regarding completely cleaning up the site by directing his staff to
                 ensure that the new Record of Decision includes a detailed comparison of
                 current and prior site investigations and cleanups.

Agency Response and OIG Comments
         In the response to the OIG draft report, the Assistant Regional Administrator for
         Policy and Management concurred with the above recommendation, and
         suggested replacing the description of the recommendation in the “At a Glance”
         section of our report with the actual recommendation. We concurred and revised
         the final report accordingly.

         The Region’s response also indicated that although New Jersey health officials
         noted that children living near the Ringwood site had higher levels of lead in their


                                           9

blood than children in other parts of the borough, only one child in the study had
an elevated level in his/her blood that was possibly related to paint sludge from
the Ringwood site.

According to the New Jersey Public Health Assessment, 909 Ringwood children
were tested for blood lead between July 1999 and October 2005. Of these
children, 45 lived in the Ringwood Mines area (“Focus Area”); 861 lived in other
areas of Ringwood (“non-Focus Area”); and 3 lacked sufficient address
information to determine residential location.

The study noted that although most children had a blood lead level below 10
µg/dL, there appeared to be slightly higher levels in the distribution of blood lead
levels in the Focus Area children, which could have resulted from the relatively
small sample size or could indicate that the children had slightly more exposure to
lead in the environment than non-Focus Area children.

The Ringwood Health Department followed up on two Focus Area children
whose blood lead levels exceeded 10 µg/dL and determined that the elevated level
for one child was attributed to potential exposure to lead in paint sludge, while for
the other child the likely cause was lead paint during home renovation. However,
the New Jersey Public Health Assessment also noted that if 1,000 children had
been tested, the rate of elevated blood level for non-Focus Area children was 8
children per 1,000, while the rate for Focus Area children was 44 children per
1,000.

The Region’s response also indicated that Upper Ringwood was an adversely
impacted area solely as a result of it being part of a Superfund site. However, as
noted on pages 8 and 9 of this report, the Region’s environmental justice
assessment concluded that the site exhibited an adverse health effect on the
Ringwood Mines community based on a report issued by the Agency for Toxic
Substances and Diseases Registry in 1989. This report concluded that the
Ringwood site posed a potential health concern because of the risk to human
health that could result from possible exposure to hazardous substances at levels
that may result in long term adverse health effects.




                                 10

                                Chapter 3
         Region 2 Must Overcome Impediments
             to Good Community Relations

          Despite recent efforts by Region 2 staff to increase communications with
          residents, three factors impede good relations. First, during earlier cleanups of the
          Ringwood site, Region 2 staff missed opportunities to establish a good
          relationship with the community by not promptly developing a community
          relations plan in 1984, and then not updating it in the early 1990s to reflect
          changes in the situation. Second, there
          are concerns about EPA’s relationship         At most sites, the success of community
          with Ford, the performing potentially         involvement has a direct impact on the
          responsible party (PRP) for the site.         success of the overall cleanup.
          Third, other legal concerns are also 

          impacting communications. 
                   Source: April 2002 Superfund
          Specifically, the site residents’ lawyers     Community Involvement Handbook
          want communications with some site residents to go through them, and the
          Borough’s status as a PRP complicates communications with Borough officials.
          For an effective working relationship with the community, the new community
          relations plan for the Ringwood site must address the current impediments.

Region 2 Did Not Promptly Establish Community Relations
          Despite requirements to the contrary, the Region 2 community relations staff did
          not become involved in site activities until 1988 - 5 years after the site was listed
          on the NPL and shortly before the remedy was selected for the site. Earlier dialog
          with community members might have laid a foundation for good relations,
          perhaps leading to locating and removing more contamination during the original
          site cleanup; according to one of the site residents, they have pointed out half of
          the areas that are now being cleaned up.

          In September 1983, EPA added the Ringwood site to the NPL. According to
          EPA’s May 1983 Superfund Community Relations Policy, the objectives of the
          Superfund community relations program are to:

          •   gather information about the community in which a site or incident is located,
          •   inform the public of planned and ongoing actions,
          •   give the public the opportunity to be involved in decisionmaking, and
          •   focus and resolve controversy.




                                           11

                  For all Superfund-financed cleanup actions, the policy stated EPA regional offices
                  must develop a community relations plan (CRP). The CRP is a management and
                                                           planning tool which outlines the specific
The RPM is the overall project manager with                communications activities to be used
responsibility for everything that occurs at the site. The during a Superfund response and the
Community Involvement Coordinator is responsible for       integration of these activities with the
advising the project manager on required community         technical work at a site. The Remedial
involvement activities and recommending activities that
will ensure the community has every opportunity to be
                                                           Action Master Plan for a site must include
involved. Involvement by all members of the Site Team      a community relations assessment with
in community involvement planning and implementation       steps needed to prepare the CRP.
activities ensures integration of community involvement
in the cleanup process and furthers public participation.
                                                     EPA drafted a Remedial Action Master
                                                     Plan for the Ringwood site in August
Source: April 2002 Superfund Community Involvement
                                                     1983. It included the required community
Handbook
                                                     relations assessment. The first item in the
                assessment was to identify community concerns by interviewing local officials
                and community members. It did not include the required schedule for completing
                the community relations plan.

                Seven months after the Remedial Action Master Plan was prepared, Ford became
                responsible for cleaning up the site. Since the cleanup was led by the PRP, it was
                no longer a Superfund-financed action. Consequently, EPA’s 1983 policy did not
                apply, so the Region 2 staff may have considered a CRP unnecessary. Effective
                February 1986, the requirements changed; for cleanup actions at NPL sites,
                including enforcement actions, a CRP must be implemented before field activities
                start. However, the Region 2 staff did not immediately start preparing the CRP
                for the Ringwood site.

                The interviews needed to prepare the CRP were performed in early 1988. They
                were conducted by a member of the Region 2 Office of External Affairs and an
                EPA contractor. In Region 2, the community relations staff are not part of the
                Superfund program division. The CRP for the Ringwood site was issued in July
                1988. The delay from 1983 to 1988 in preparing the CRP was not explained in
                the site files, although we found documents dated 1985 and 1986, informing
                Region 2 staff of potential community relations problems at the site and urging
                them to prepare a CRP. These documents came from staff in the New Jersey
                Department of Environmental Protection.

                Although community relations staff were not involved until 1988, Region 2
                technical staff were involved. There was little evidence that the Region 2
                technical staff informed the community about site activities. We found two
                handouts about site activities dated before the July 1988 CRP: February 1984 and
                October 1987. The latter announced the start of excavating and removing paint
                sludge. It was mailed to residents by local officials. The first public meeting with
                residents during that period was in August 1988, to discuss the options for




                                                     12

          cleaning up the site. There was no evidence in Region 2’s site files of any other
          meetings with residents.

          The lack of evidence concerning communication with the community during the
          original cleanup was consistent with what community members told us. We
          interviewed eight people who were adults living in Ringwood at that time. Six of
          these individuals lived on or very near the site. None of the eight people recalled
          efforts by EPA to inform them about what was going on at the site. Three said
          they were unaware of the original cleanup activity. Five site residents said they
          did not know about the original cleanup until they saw trucks or workers at the
          site.

Community Relations Plan Did Not Change with the Situation
          Region 2 staff did not re-evaluate community relations activity in 1992 and 1995
          when community members brought additional concerns to their attention. The
          community issues and concerns identified in the 1988 Ringwood CRP were
          limited. Two local organizations, the Families of the Ringwood Mines and the
          Ringwood Neighborhood Action Association, expressed additional concerns
          about the site in 1992 and 1995, respectively. Although EPA’s 1988 Community
          Relations Handbook indicates that a community relations plan should be revised
          if community attitudes change, the Region 2 staff have never changed the
          Ringwood CRP.

          In a letter dated April 1992, a representative of the Families of the Ringwood
          Mines told the Region 2 project manager that the citizens living near the
          Ringwood mines were concerned about the possible health effects of the
          substances dumped at the mines. The letter noted the presence of noxious odors
          and vapors. This group apparently started collecting health information from
          community members. Because he was concerned about the issue, in June 1992
          the Region 2 project manager requested that a fact sheet be prepared. A fact sheet
          dated July 1992 was prepared. It summarized the results of monitoring activities
          at the site. There was no evidence of other community relations activity
          concerning the matter.

          In late February 1995, the president of the Ringwood Neighborhood Action
          Association informed the Borough Council that paint sludge remained at the
          Ringwood site despite two previous removal actions. After visiting the site, the
          health officer from the Borough contacted EPA about the sludge. The Region 2
          project manager visited the site in April 1995, and promised to investigate further.
          There was no evidence of other community relations activity concerning the
          matter. These events in 1995 were similar to how the current cleanup actions at
          the site started.




                                           13

EPA’s Relationship with Ford Is Perceived As Inappropriate
          Some Borough residents and officials, and others, perceive EPA’s relationship
          with Ford to be inappropriate. According to them, Ford appears to be making the
          decisions about cleaning up the site, not EPA.

          Several people, including site residents, their consultants, and Borough officials,
          expressed concern about the relationship between EPA and Ford (including
          Ford’s technical consultant). They characterized the relationship between EPA
          and Ford in several ways, or combinations of ways, including that EPA:

          •	 Protected or defended Ford, or let Ford off the hook.

          •	 Let Ford make the decisions.

          •	 Was lax, or not forceful enough, with Ford.

          •	 Did not ensure that Ford’s technical consultant performed adequately.

          Some of these individuals also expressed concern about funding the cleanup if
          Ford backs out or goes bankrupt; this concern was cited as a possible reason for
          EPA being lax with Ford.

          According to several people, the actions of the current Region 2 RPM contributed
          to their perception of an inappropriate relationship. Under the current settlement
          agreement between EPA and Ford, EPA (i.e., the RPM designated in the
          agreement) must approve the plans prepared by Ford, as well as the work
          performed. Thus, the RPM must work closely with Ford. At the same time, we
          believe the Region 2 staff must demonstrate to the community that they are
          directing this work, not Ford or its technical consultant. Some ways they may do
          this are as follows:

          •	 When meeting with Borough residents, fully answer questions about work at
             the site in an open and direct manner, without referring to representatives of
             Ford or its consultant. According to a Region 2 official, their representatives
             answer the vast majority of questions, and refer questions to Ford or its
             consultant on the rare occasions EPA staff are unable to answer a specific
             comment. Despite these efforts, several Borough residents and officials
             believe the RPM does not fully answer some of the questions he addresses.

          •	 Promptly convey testing results to the community, and explain the
             implications of these results to them. According to a Region 2 official,
             Region 2 releases data after the quality is verified, so it usually takes 21 days
             to process a sample. At the public meeting on July 25, 2006, Region 2 staff
             explained to the community why it takes longer for EPA to release results
             than it takes the site residents’ consultant. Once Region 2 has the results,


                                           14

            though, the community wants them as soon as possible, along with what they
            mean.

         •	 In the cover letter providing the site residents’ representative with the monthly
            progress report, clearly explain in detail when and how upcoming site activity
            will impact the neighborhood. Although Region 2 staff have expanded
            distribution of these progress reports, apparently site residents (and, as
            discussed later, Borough officials) are not satisfied with their content. For
            example, according to the progress report for August 2006, in September
            2006, Ford’s consultant anticipated performing site-wide groundwater
            sampling. In the letter dated September 19, 2006, that conveyed this progress
            report to the community’s representative, the RPM noted that Ford’s
            consultant “will be collecting groundwater samples from all viable monitoring
            wells at the Site, starting on Monday, September 25, 2006.” The RPM
            repeated this information in a letter to the site residents’ representative dated
            September 21. Starting on October 3, and continuing for several days, a crew
            using large equipment that partially blocked a residential street performed
            work in the Ringwood site. Site residents were upset about this activity for
            several reasons, one of which was they believed no one had warned them
            about it in advance. Even with the RPM’s notice, they had not connected this
            activity with the groundwater sampling.

         •	 Inform the community when EPA approves plans for work at the site,
            highlighting the review EPA performed and any changes to the plan that EPA
            requested.

Other Legal Considerations Complicate Communication
         EPA’s communications with Borough residents and officials are impacted by two
         other issues, which are of a legal nature. First, lawyers representing past and
         present residents of the Ringwood site want contacts with the site residents
         coordinated through them. This sometimes slows efforts by Region 2 staff to
         meet with site residents. Second, site residents sometimes rely on Borough
         officials to inform them about site activities. These officials do not always know
         about the activities because, since the Borough is also a PRP, Region 2 staff must
         follow legal protocols in communicating with them.

         Shortly after the RPM’s site visit in April 2004, lawyers representing the site
         residents contacted the Region 2 staff. They asked Region 2 to keep them
         apprised concerning EPA's activities as they affect the residents, and to coordinate
         Region 2’s contacts with these residents through them. According to the lawyers,
         the site residents had sought counsel “in large part due to EPA's 22-year record of
         failing to clean the contaminated site on which they reside, failing to protect their
         health, and failing even to speak to them.” In January 2006, the site residents
         filed a lawsuit against Ford.



                                          15

         The Region 2 staff must take the lawyers’ requests into account when dealing
         with site residents. According to a Region 2 official, they try to communicate
         with site residents as directly as possible while accommodating their needs for
         legal representation. However, accommodating the lawyers’ requests sometimes
         delays meetings between the Region 2 staff and site residents. For example,
         according to the Community Involvement Coordinator (CIC) for the Ringwood
         site, she tried to set up a meeting with the site residents (and their lawyers) in
         March 2005. The meeting was not held until May 2005.

         There is a communication network for the PRPs. It includes the Borough because
         in 1990, EPA formally notified the Borough that it was a PRP. A single person
         was identified in the enforcement orders to serve as the official contact for the
         PRPs related to the Ringwood site. The official contact is a Ford official. All
         technical matters must go through this person. Ford, therefore, is responsible for
         keeping the Borough informed about what is going on at the site on a day-to-day
         basis, not EPA. Each month, Ford’s technical consultant prepares a summary on
         site activity. The Borough Manager receives these monthly reports. Thus, the
         Borough is regularly informed about site activity.

         The Borough officials with whom we spoke believed they were not receiving
         enough information about site activities. When unexpected activity occurs at the
         site, some site residents contact Borough officials. The Borough officials do not
         always have information about the activity in question. The Region 2 RPM is
         aware of the concern about communication among the PRPs, and is working with
         Borough officials to resolve it. In addition, according to him, Region 2 sends a
         copy of all correspondence with residents to the Borough.

Continued Improvement in Communication Is Needed
         The Region 2 community relations staff have increased interaction with site and
         Borough residents. Because of these efforts, some site residents believe
         communication has improved regarding their involvement in site activities. The
         new CRP being prepared for the Ringwood site must further a good relationship
         with site and Borough residents.

         Since April 2004, when the Region 2 employee who later became the RPM for
         the Ringwood site toured the area with site residents, the Region 2 community
         relations staff have spent more time each year on community relations activities
         for the Ringwood site. In fiscal 2004, they spent 83 hours, in 2005 almost 360
         hours, and in 2006 almost 450 hours. Most of the time in 2006 was performed by
         the CIC for the site. Of her time working on various Region 2 Superfund sites
         during 2006, she spent over a quarter on Ringwood.




                                          16

 Figure 4. Time Spent by Region 2 on Community Relations        The increased effort on community
                   Recently Increased                           relations activities is reflected by the
               Hours of Community Relations Activity
                                                                number of contacts with site and
                                                                Borough residents. Besides several
                                              446.0             meetings in 2004 and 2005, with
       450.0                     358.5                          just site residents and their lawyers,
       400.0
       350.0                                                    the Region 2 staff:
       300.0
       250.0
       200.0                                                        •	 held four larger-scale public
       150.0         83.0
       100.0
                                                                       information meetings with
        50.0                                                           those interested in the site;
         0.0
                   2004         2005        2006
                             Fiscal Year                            •	 helped site residents create a
                                                                       Ringwood Community
Source: OCFO Reporting and Business Intelligence Tool                  Advisory Group (CAG),
                                                                       which then met four times;

                   •	 arranged for the Regional Administrator for Region 2 to visit Ringwood in
                      October 2005 and January 2006;

                  •	 prepared six handouts about activities at the site; and

                  •	 established a Website for the Ringwood site in addition to the EPA Website
                     and a Website maintained by Ford.

                  Some of the site residents who spoke to us believed EPA is now doing a better job
                  keeping them informed and involved.

                  Several setbacks have occurred in the recent relations between the EPA staff and
                  the residents. For example, although the CAG started off with monthly meetings,
                  none were held since March 2006, and the reason they were discontinued is in
                  dispute. One resident said the EPA staff no longer wanted them; the EPA staff
                  contend a community lawyer requested the CAG meetings stop. Also, several
                  people who attended community or CAG meetings told us some of the meetings
                  degenerated because of conflicts between participants. Despite the improved
                  communications, some site residents told us they believe the EPA staff are not
                  always open, frank, or timely in letting them know about site activities.

                  Changes Needed to Community Advisory Group

                  As noted earlier, the Region 2 staff helped the site residents form a CAG. A CAG
                  is intended to be a public forum for community members to present and discuss




                                                       17

their needs and concerns
related to the Superfund     A community with a high level of interest and concern
                             about remedial activities or significant environmental
decisionmaking process.      justice concerns related to the site should be a strong
Thus, a CAG seems            candidate for a CAG.
appropriate for the
Ringwood site.               Source: April 2002 Superfund Community Involvement
However, the CAG             Handbook
meetings, and some of the other Ringwood site meetings, were variously
described in interviews as degenerating or deteriorating, out of control, shouting
matches between EPA staff and residents, awful dynamics, and the community
was hostile. This must be reversed if the CAG is to be a successful forum.

When the Ringwood CAG was established, it was not given enough form to
function effectively. According to EPA guidance, each CAG should develop a
mission statement describing the CAG's specific purpose, scope, goals, and
objectives. Each CAG also should develop a set of procedures to guide day-to­
day operations. CAG members may select a chairperson from within their ranks
and determine an appropriate term of office. The primary functions of the CAG
chairperson are to conduct CAG meetings in a manner that encourages open and
constructive participation by all members; to ensure that all pertinent community
concerns are raised for consideration and discussion; and to attempt, whenever
possible, to achieve consensus among CAG members. If meeting facilitation is
needed, it is preferable to use someone from the community with facilitation
experience or a professional meeting facilitator. A neutral facilitator is
particularly effective at sites where some controversy is anticipated.

The Ringwood CAG was missing several of the above attributes. It does not have
a mission statement or operating procedures. The duties of a chairperson were not
defined, nor was a chairperson selected. Also, given the poor relationships of
those involved, a meeting facilitator is needed. These deficiencies should be
corrected.

A New Community Relations Plan Is Being Prepared

According to the CIC for the Ringwood site, Region 2 plans to prepare a new
CRP for the site. Under EPA’s current guidance, the April 2002 Superfund
Community Involvement Handbook, such plans are now called community
involvement plans. One must be prepared after a site is listed on the NPL. The
community involvement plan should identify the community’s issues, needs, and
concerns, and identify specific activities, outreach products, or programs EPA
will use to address the community’s concerns. The Handbook identifies a variety
of communication strategies and techniques that can be used by the RPM and CIC
to ensure the community is informed about, and involved in, site activities. For
example, it states:




                                  18

                 Person-to-person interaction is necessary for the community to get
                 to know Site Team members and vice versa. Personal interactions,
                 either by telephone or in person, contribute more to the
                 development of trust and cooperative working relationships than
                 any other form of outreach. Availability sessions, public meetings,
                 workshops, and TV or radio appearances work well.

         As noted earlier, the Region 2 staff have initiated personal interaction at the
         Ringwood site. Much more such interaction will be needed because many site
         residents believe the Region 2 staff are not open and frank with them about site
         activities. They based this belief on a variety of incidents in which the Region 2
         staff seemed to evade questions, or did not provide information in a timely
         manner. In fact, a few site residents do not acknowledge that communications
         have recently improved.

         The community involvement plan for the Ringwood site should be promptly
         drafted, thoroughly discussed with residents and Borough officials, and quickly
         implemented. We believe it should include multiple avenues of communication,
         especially personal interaction. According to a Region 2 official, they plan to
         address re-establishing the CAG in the new community involvement plan, and
         they have already begun work on this plan.

Recommendations
         We recommend that the Regional Administrator, Region 2, direct his staff to:

         3-1 	   Prepare and implement a new community involvement plan for the
                 Ringwood site.

         3-2 	   Help the community correct the deficiencies in the Community Advisory
                 Group so its meetings are regularly held and productive.

         3-3 	   Increase communication with the community about Region 2 efforts to
                 ensure that Ford properly performs the correct work at the site.

Agency Response and OIG Comments
         In the response to the OIG draft report, the Assistant Regional Administrator
         concurred with the above recommendations. Concerning the factual corrections
         and revisions requested, we generally agreed and changed the report accordingly.
         One comment was about a statement in the OIG draft report that the April 1992
         letter from the Family of the Ringwood Mines mentioned that State authorities
         had determined that the residents’ drinking water was contaminated. Although
         the statement was correct, we deleted it because the 1988 Record of Decision
         confirmed that the residents receive water from a municipal water supply.



                                          19

Regarding EPA’s relationship with the PRP, Region 2 indicated in its response to
our draft report that regional staff have interacted with Ford and its contractors
according to all EPA regulations and guidance for dealing with a PRP at a
Superfund site. The Region added that while there are variations in the Region’s
relationships with PRPs from site to site, the Region’s relationship with Ford at
Ringwood is typical for a Superfund site of this complexity.

Regarding the CAG, the Region’s response noted that the Region had secured the
services of a professional facilitator for the CAG.

Regarding the community involvement plan, Region 2 indicated in its response
that regional staff conducted several interviews for the new plan on March 2 and
March 13, 2007.

Regarding the Agency’s oversight of the PRP, Region 2’s response noted that
since 1983, EPA issued five administrative orders to Ford, requiring Ford to
perform various investigatory and cleanup actions at the site.




                                20

                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                          Subject                            Status1         Action Official          Date      Amount      Amount

    2-1       9     Address the Ringwood community’s perception of             O         Regional Administrator,
                    unfair treatment and concerns regarding                                    Region 2
                    completely cleaning up the site by directing his staff
                    to ensure that the new Record of Decision includes
                    a detailed comparison of current and prior site
                    investigations and cleanups.

    3-1       19    Prepare and implement a new community                      O         Regional Administrator,
                    involvement plan for the Ringwood site.                                    Region 2

    3-2       19    Help the community correct the deficiencies in the         O         Regional Administrator,
                    Community Advisory Group so its meetings are                               Region 2
                    regularly held and productive.

    3-3       19    Increase communication with the community about            O         Regional Administrator,
                    Region 2 efforts to ensure that Ford properly                              Region 2
                    performs the correct work at the site.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   21

                                                                                        Appendix A

                      Agency Response to Draft Report
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                                           REGION 2 




      DATE:    March 16, 2007

   SUBJECT:    Region 2 Comments on OIG Draft Report - Ringwood Mines

      FROM:    Donna J. Vizian
               Assistant Regional Administrator for Policy and Management

         TO:   Paul McKechnie
               Office of Inspector General

EPA Region 2 welcomes the opportunity to comment on the Office of the Inspector General’s draft
report on the Ringwood Mines/Landfill Superfund site.

Region 2’s responses to each recommendation in the draft report are as follows:

OIG Recommendation #2-1

"We recommend that the Regional Administrator, Region 2, address the Ringwood community's
perception of unfair treatment and concerns regarding completely cleaning up the site, by directing
his staff to ensure that the Record of Decision includes a detailed comparison of current and prior
site investigations and cleanups to demonstrate how the current investigation and cleanup will differ
from those conducted in the past."

Region 2 Response

Region 2 concurs. Any future Record of Decision issued for the Ringwood Mines site will discuss
all prior investigation and cleanup action implemented at the site, and provide a comparison of the
current and prior investigations and cleanup actions.

OIG Recommendation #3-1

"We recommend that the Regional Administrator, Region 2, direct his staff to prepare and
implement a new community involvement plan for the Ringwood site."

Region 2 Response

Region 2 concurs. For additional information, please see the below section entitled “Update on
Community Involvement Work.”


                                                   22

OIG Recommendation #3-2

"We recommend that the Regional Administrator, Region 2, direct his staff to help the community
correct the deficiencies in the Community Advisory Group so its meetings are regularly held and
productive."

Region 2 Response

Region 2 concurs. Again, for additional information, please see the below section entitled “Update
on Community Involvement Work.”

OIG Recommendation #3-3

"We recommend that the Regional Administrator, Region 2, direct his staff to increase
communication with the community about Region 2 efforts to ensure that Ford properly performs the
correct work at the site."

Region 2 Response

Region 2 concurs.


Additionally, we are providing several factual corrections and suggested content revisions that we
would like to see incorporated into the final version of the report.

Title of report draws an inaccurate conclusion

The title of the OIG’s draft report, “Environmental Justice Concerns and Communication Problems
Complicated Cleaning Up Ringwood Mines/Landfill Site,” suggests that EPA’s cleanup work at the
Ringwood site has been affected by environmental justice or communication issues. The report,
however, does not present any findings that EPA’s daily cleanup efforts have been impacted by these
issues. In addition, the title is a statement of a conclusion rather than a statement that conveys the
subject of the report. We request that
the OIG consider a new title for the report that more accurately represents its content. For example
“A Review of Environmental Justice and Communications Efforts at the Ringwood Mines/Landfill
Site,” would more accurately describe the content of the report.

Record of Decision (ROD) recommendation

The OIG’s recommendation for the new ROD in Chapter 2 (currently at the bottom of page 8)
should replace the description of that recommendation in the “At a Glance” section as the language
in Chapter 2 is more complete.




                                                   23

 EPA’s relationship with Ford

 We agree with the OIG that EPA’s relationship with Ford as a potentially responsible party (PRP) is
 an important issue at the Ringwood site. However, Chapter 3’s presentation of EPA’s relationship
 with Ford, which is based solely on perceptions of interviewees, does not reflect the reality of this
 relationship. Region 2 staff have interacted with Ford and its contractors according to all agency
 regulations and guidance for dealing with a PRP at a Superfund site, and it is imperative that the
 final report reflect this. Although there are variations in our relationship with PRPs from site to site,
 our relationship with Ford at Ringwood is typical for a Superfund site of this complexity.
 It should be noted that since 1983, EPA has issued five administrative orders to Ford, which require
 Ford’s performance of investigatory and cleanup actions at the site. In fact, investigations are
 currently being conducted at the site by Ford’s contractor pursuant to the requirements of a
 September 2005 administrative order. Furthermore, all work plans developed by Ford’s contractor
 are subject to review and approval by EPA. To ensure compliance with the approved work plans, all
 fieldwork is overseen by the U.S. Army Corps of Engineers for EPA.

 Update on community involvement work

 EPA and federal and state health agencies held a public information session on January 30, 2007 to
 discuss results of the agency’s biota study at the Ringwood site, which was attended by about 50
 people. At that meeting, EPA also announced plans to conduct community interviews as part of its
 revised community involvement plan (CIP). Several interviews took place on March 2 and March
 13 (please note, however, that as of today, none of the Upper Ringwood residents has agreed to be
 interviewed for the revised CIP). EPA has secured the services of a professional facilitator for the
 community advisory group. EPA also released the initial results of its deer study at Ringwood site
 on March 9 and is analyzing recently-collected deer from off of the site. Additional wildlife,
 including wild turkeys, rabbits and squirrels, will be continued to be collected and analyzed. We
 will likely present our findings to the public later this spring.

 Factual corrections for the final report

•	     In the “At a Glance” section, the first item in the left column should specify that three
       members of the New Jersey congressional delegation asked the OIG to conduct this
       investigation.
•	     On page 2 of the draft, the second paragraph should be revised to reflect that in 1987, 7,000
       cubic yards of superficial paint sludge and soil were removed from four areas of the site.
•	     On the same page, the OIG notes that Region 2 concluded the requirements had been met to
       delete the site from the NPL in 1993. The report should reflect that the New Jersey
       Department of Environmental Protection concurred with our findings.
•	     The photograph on page 5 is from the SR-3 removal area, not the O’Connor Disposal
       Area.
•	     The third paragraph on page 7 discusses a 2006 study by New Jersey health officials that
        noted children living near the Ringwood site had higher levels of lead in their blood than in
        other parts of the borough. Please note that only one child in the study had an elevated level
        in their blood that was possibly related to paint sludge from the Ringwood site.



                                                      24

•	     The last sentence in this paragraph notes that ATSDR recommended an exposure
       investigation be conducted. Please note that attorneys representing some Ringwood residents
       subsequently indicated in a June 2, 2006 letter that they had advised their clients not to
       participate in physical exams being coordinated by ATSDR, due to litigation concerns.
•	     The last paragraph on page 7 of the draft should mention that Region 2 concluded that Upper
       Ringwood was an adversely impacted area solely as a result of it being part of a Superfund
       site.
•	     The third full paragraph on page 11 mentions a 1992 letter where New Jersey state
       authorities determined Ringwood residents’ drinking water to be contaminated. However, it
       is EPA’s understanding that Upper Ringwood residents were connected to the municipal
       water supply during the 1980s, which was not contaminated.
•	     The report should discuss, perhaps in the “Other Legal Considerations Complicate
       Communication” section in Chapter 3, that New Jersey agencies are overseeing the possible
       remediation of residential properties or relocation of residents related to the Ringwood site.

If you have any questions, please let me know or contact John Svec at (212) 637-3699.




                                                   25

                                                                            Appendix B

                                   Distribution

Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Regional Administrator, Region 2
Audit Followup Coordinator, Region 2
Director, Public Affairs Division, Region 2
Director, Emergency and Remedial Response Division, Region 2
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
General Counsel
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Regional Operations
Acting Inspector General




                                            26

